OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/KENYA’S
TUBERCULOSIS ACTIVITIES

AUDIT REPORT NO. 4-615-14-001-P
OCTOBER 22, 2013




PRETORIA, SOUTH AFRICA

	
	


Office	of	Inspector	General


October 22, 2013

MEMORANDUM

TO:                  USAID/Kenya Mission Director, Karen Freeman

FROM:                Regional Inspector General/Pretoria, Robert W. Mason /s/

SUBJECT:             Audit of USAID Kenya’s Tuberculosis Activities (Report No. 4-615-14-001-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included them in their entirety in Appendix II.

The report includes three recommendations to strengthen USAID/Kenya’s activities to combat
tuberculosis. We acknowledge management decisions on all three recommendations and
consider that final action has been taken on Recommendation 1. Please provide the necessary
documentation to the Office of Audit Performance and Compliance Division to achieve final
action on Recommendations 2 and 3.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5, 0181
Pretoria, South Africa
http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 5 


     USAID Missed Opportunities to Improve Financial Sustainability ........................................... 5 


     USAID’s Verification of Data Quality Was Inadequate ............................................................ 6 


Evaluation of Management Comments..................................................................................... 8 


Appendix I—Scope and Methodology ...................................................................................... 9 


Appendix II—Management Comments ................................................................................... 11 

SUMMARY OF RESULTS 

The tuberculosis (TB) epidemic in Kenya has hindered the country’s overall development by
infecting more than 100,000 Kenyans and leaving thousands dead every year. According to the
World Health Organization (WHO), Kenya had the 25th-highest incidence of TB worldwide,
causing up to 15,000 deaths in 2011 (Global Tuberculosis Report 2012). This estimate did not
include deaths of people living with HIV. Since mortality is three times higher for people living
with HIV who have TB than for those without, and nearly 40 percent of all TB patients were HIV-
positive, total TB deaths were significantly higher. Despite these sobering statistics, prompt
treatment can cure most cases of TB.

The Government of Kenya has made important gains in TB care, diagnosis, and treatment. In
1980 it combined anti-TB activities that it started in 1956 with leprosy-control projects to form the
National Leprosy and Tuberculosis Program. In 2007, the government transformed the program
into a division of the Ministry of Public Health and Sanitation. The Division of Leprosy,
Tuberculosis, and Lung Disease’s mandate includes developing policies, mobilizing resources,
and implementing activities to control TB. The division reported that TB treatment was successful
for more than 87 percent of patients who received treatment for the first time in 2010, and the
health system identified 82 percent of total estimated TB cases—both rates exceeding WHO
targets. However, TB in children under 15 and multi-drug-resistant TB are growing concerns. In
2010, the division drafted a new 5-year strategic plan to address them and build on previous
gains.

USAID/Kenya, one of the country’s largest health sector donors, drafted its own TB strategy for
2012-2016. Since TB is the leading cause of death among people living with HIV, the strategy
also promotes activities to better diagnose and care for individuals coinfected with TB and HIV.
The overarching goals of the strategy are to improve TB detection and treatment, coordinate
activities linking TB and HIV prevention and treatment, screen for resistance to TB drugs, and
use TB-related information. Under its strategy, USAID/Kenya uses general health funds
allocated to TB for one project that supports division-led interventions and uses funds from the
President’s Emergency Plan for AIDS Relief to fund six other projects that support TB and HIV
detection and treatment as one aspect of their HIV activities. The TB project is national while the
other six projects provided services in discrete geographic areas. Three projects selected for
audit appear in the following table.

              Audited Projects as of March 31, 2013 (budget figures unaudited)
 Project Name, Type,
                                      Description                        Budget              Dates
     and Partner
                                                                 $225 million worldwide;
TB Care                   TB Care supported the division by
                                                                 Obligations of
Field support† provided   funding operational costs, providing                             9/29/2010 –
                                                                 $11.9 million and
by KNCV Tuberculosis      technical assistance, and procuring                              6/30/2013
                                                                 expenditures of
Foundation (KNCV)         equipment.
                                                                 $5.5 million in Kenya




                                                                                                     1
    Project Name, Type,
                                        Description	                         Budget                 Dates
        and Partner
                            The project has operated in Nairobi
APHIA Plus Nairobi          and Coast Provinces. Its activities
                                                                    $55 million; obligations of
Coast                       have included training TB health-care
                                                                    $55 million; expenditures
Cooperative agreement       workers in HIV counseling and                                       1/1/2011 –
                                                                    of $37.1 million,
implemented by              testing and renovating health                                       12/31/2013
                                                                    $0.7 million of which was
Pathfinder International,   facilities to promote access to
                                                                    allocated to TB/HIV
Inc. (Pathfinder)           services for patients coinfected with
                            TB and HIV.
                                                                    $74.9 million; obligations
AMPATH Plus                 This project in Western Kenya
                                                                    of $16.8 million;
Cooperative agreement       supports research, diagnosis of drug-
                                                                    expenditures of               3/17/2012 –
implemented by Moi          resistant TB, and community
                                                                    $5 million, $0.4 million of   3/16/2017
Teaching and Referral       treatment and care for those
                                                                    which was allocated to
Hospital 	                  coinfected with TB and HIV.
                                                                    TB/HIV
†
 Field support refers to services, technical assistance, or commodities that a mission obtains through a
contract or agreement that USAID headquarters awards and manages.

The Regional Inspector General/Pretoria (RIG/Pretoria) conducted this audit to determine
whether USAID/Kenya’s TB activities improved laboratory capabilities and access to treatment
and whether TB/HIV activities increased access to the service delivery system.

TB Care did improve laboratory capability and access to treatment. The audit reviewed data on
indicators such as the treatment success rate (the percentage of first-time patients who were
cured by or at least completed treatment—a key indicator of how well the country is fighting the
disease) and the case detection rate (the percentage of estimated cases detected), including a
review of source documentation in six TB control zones. The division-reported results for these
indicators were 87 percent and 82 percent, respectively, and exceeded WHO targets.1 Although
the division was not verifying the data, as discussed on page 6, differences identified by the
audit were not significant enough to prevent the achievement of the WHO targets.

Other indications that USAID/Kenya’s activities improved laboratory capabilities and access to
treatment include the following:

	 External quality assurance. TB Care reported that the number of laboratories participating in
   external quality assurance rose from about 260 to approximately 1,700. External quality
   assurance monitors the quality of TB diagnostic tests to promote greater accuracy and
   reliability. The project also reported training more than 600 laboratory technicians and
   supervisors in quality assurance. As a result, the accuracy of lab results has improved,
   decreasing the number of healthy patients undergoing treatment and increasing the timely
   treatment of patients with TB.

	 Equipment. TB Care purchased GeneXpert machines (like the one shown on the next page)
   for three facilities in Coast Province and taught staff how to use them. The machines can
   diagnose TB and detect drug resistance, thus producing more accurate diagnoses than

1
  In 1991, WHO set global targets of 85 percent treatment success rate and 70 percent case detection
rate. WHO expected that achieving these targets would reduce the TB incidence rate by 7 to 12 percent
each year. The WHO 2006-2015 Stop TB strategy reiterated that these targets should be met by 2005
and sustained or exceeded by 2015.


                                                                                                            2
   those performed using microscopes. According to TB Care officials, the machines can
   determine drug resistance in 2 hours while the alternate method takes 2 weeks. Because
   timely and accurate diagnosis is a prerequisite for treatment, using these machines can help
   increase the number of people successfully treated.

	 Electronic data collection. TB Care helped the division develop software and procured
   100 tablet computers that allowed the division to move from a paper-based data collection
   system to a more efficient and effective electronic system. The new technology should
   facilitate faster collection, recording, and use of TB-related data.

Although data limitations prevented us from definitively determining the projects’ impact
nationwide, the following examples indicate that USAID/Kenya’s TB/HIV activities increased
people’s access to health services:

	 AMPATH Plus trained health workers to screen for TB in the communities around health
   facilities. The project reported that from October 1 to December 31, 2012, these workers
   screened almost 12,000 people.

	 APHIA Plus Nairobi Coast reported directly supporting 198 health facilities. At one, the
   district coordinator said that APHIA Plus had repaired the roof, painted the walls, and
   installed burglar bars. At another location, a different district coordinator said that APHIA
   Plus officials had trained him in TB/HIV activities and management skills and sometimes
   accompanied him on visits to health facilities. These activities improved the capacity of
   facilities and district coordinators, increasing access to service delivery systems.




The GeneXpert machine and computer at left help conduct the analysis of sputum samples to 

determine TB drug resistance. The results of the analysis done on sputum samples appear at

right. (Photos by RIG/Pretoria, Mombasa, Kenya, May 2013)


Despite these accomplishments, the audit found that:

	 USAID/Kenya missed opportunities to improve financial sustainability (page 5). The
   implementer did not devise a sustainability plan for activities that relied heavily on donor
   support. The implementer also set site-visit expectations too low for district coordinators,
   whose number the project helped increase, inadvertently causing bloat and decreasing cost
   efficiency.



                                                                                              3
	 USAID/Kenya’s verification of data quality was inadequate (page 6). USAID/Kenya accepted
   some TB performance data that was not reliable, and USAID/Kenya managers relied
   exclusively on the division’s data quality assessment without reviewing it. Because of these
   limitations, the mission lacked reliable data about its TB activities in Kenya.

To address these issues and strengthen USAID/Kenya’s TB and TB/HIV activities, the audit
recommends that USAID/Kenya:

1. 	Direct the implementer of the successor project to TB Care to include in its work plan
    technical assistance to the division to develop a financial sustainability plan that includes
    improved cost efficiency for TB programs (page 6).

2. 	 Implement a plan to improve coordination between the division and implementing partners
     reporting indicator results pertaining to patients infected with TB and HIV (page 7).

3. 	Implement a plan to comply with USAID’s requirements for data quality assessments
    (DQAs) of TB indicators prepared by the division. The assessment should contain overall
    conclusions on the data management system, including systemic problems if found, and
    mission officials should review the final assessment report to verify that it complies with
    USAID requirements (page 7).

Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. Management comments are in Appendix II, and our evaluation of them is on page 8.




                                                                                               4
AUDIT FINDINGS 

USAID Missed Opportunities to
Improve Financial Sustainability
USAID policy emphasizes sustainability. According to Automated Directives System
(ADS) 200.3.1.5, “The ultimate goal of development cooperation is to enable developing
countries to devise and implement their own solutions to key development challenges and to
develop resilience against shocks and other setbacks.” To meet this goal, USAID must “ensure
that activities or services are tied to sustainable financing models.” Furthermore,
ADS 201.3.15.3(c) requires missions to prepare a sustainability analysis and defines
sustainability as outcomes that “continue or evolve under their own momentum or actions,
without continued donor intervention.”

Sustainability should be a major consideration for USAID/Kenya’s TB activities given the
division’s dependence on donor funding (shown below). Donor funding supports operating
expenses, and USAID/Kenya’s funding in particular supports the division’s supervision of health
facilities that diagnose and treat TB patients. The TB Care budget allocated more than
$4.3 million for supervision costs in fiscal years 2011 to 2013, more than 40 percent of the total
budget. According to division officials, such supervision is necessary for an effective health-care
delivery system, but without USAID/Kenya’s support, it would cease.

                             Kenya's TB Funding Sources, 2009/10




                                                                     Donors
                                28%
                                                    42%
                                                                     Private


                                                                     Public
                                      30%




                         Source: Kenya National Health Accounts 2009/10.

Yet USAID/Kenya missed opportunities to improve the sustainability of the division’s TB
activities. Although project organizers had planned a sustainability workshop in fiscal year 2012
to outline options for the continued financing of operating costs, TB Care officials said they had
difficulty scheduling the workshop. When the budget was cut for the following year, they
removed the activity.




                                                                                                 5
Additionally, USAID/Kenya’s support may have inadvertently diminished sustainability of the
division’s TB supervision activities. From 2009 to 2013, support allowed the division to increase
the number of district coordinators from 149 to 246, increasing supervision costs (mainly for
transportation and other allowances) by 65 percent. At the same time, the project unintentionally
set the supervisory workload too low, leading to bloat.

TB Care paid district coordinators for travel days, not to exceed 12 each month, but only
expected them to visit one site per trip. Coordinators thus had no incentive to visit multiple sites
in the same day. For example, the travel records for one district coordinator showed that
although all of the health facilities in his district were within a few kilometers, he visited only one
each day. However, the checklist that guides these visits is only one page long, allowing district
coordinators to complete it before arriving at a site and visit several sites in a single day. If the
Government of Kenya had considered future sustainability, it could have required coordinators
to visit 20 sites each month in 12 travel days. If coordinators visited 20 sites per month instead
of 12, the division could decrease the number of district coordinators to 149, greatly reducing
operating costs and improving sustainability.

As a result, the Government of Kenya is more reliant on donor funding to control TB than it was
when TB Care started. Without effective planning for sustainability, reductions in donor funding
will diminish the effectiveness of TB activities. In addition to the more than $1 million annually
that is required for TB supervision activities, TB Care has implemented other activities that
would need to be funded by the Government of Kenya if USAID funding were to end. For
example, donors funded the tablet computers and the monthly Internet costs that allow the
electronic data collection system implemented by TB Care to function. However, division
officials acknowledged that they did not have a plan for paying for replacement tablet computers
or Internet costs without donor support.

On June 27, 2013, USAID/Kenya awarded the follow-on to TB Care to the Center for Health
Solutions, Kenya. Accordingly, we make the following recommendation.

   Recommendation 1. We recommend that USAID/Kenya direct the Center for Health
   Solutions, Kenya, to include in its work plan technical assistance to the Division of
   Leprosy, Tuberculosis, and Lung Disease to develop a financial sustainability plan that
   includes improved cost efficiency for tuberculosis programs.

USAID’s Verification of Data Quality
Was Inadequate
ADS Chapter 203.3.11.1, “Data Quality Standards,” states that “high-quality data is the
cornerstone for evidence based decision-making,” and that the mission must determine the
quality of performance data, including its reliability and timeliness, to ensure it is sufficient for
making decisions. Additionally, ADS 203.3.11.2, “Purpose of Data Quality Assessments,”
explains that DQAs are mandatory for indicators reported to outside parties and that they help
missions understand the extent to which they can trust data in making management decisions.

Despite these requirements, USAID/Kenya did not adequately verify the quality of data collected
by its implementing partners and the division. For example, the six implementing partners that
receive TB/HIV funding relied on data collected by the division to compile their TB/HIV
indicators. Although the division reported for several years that more than 90 percent of TB
patients were tested for HIV, two of the six TB/HIV implementing partners reported in 2012 that

                                                                                                     6
none of their TB patients were tested—unlikely given the high testing rate in Kenya.
USAID/Kenya officials attributed this inaccuracy to delayed data sharing between the division
and these partners.

To fulfill the ADS requirement to conduct a DQA, USAID supported the division’s assessment of
the completeness and accuracy of the data it collected and reported, including results on the
treatment success rate. Although the DQA was well designed, the division’s 2010 final report on
the assessment did not answer DQA objectives. Specifically, the DQA’s primary objective was
to “determine the completeness and accuracy of the TB and TB/HIV data that are being
collected and reported on TB patients using TB patient treatment cards and registers.” However,
the DQA presented results only for facilities visited, without using these findings to evaluate the
system as a whole. For example, although the DQA noted that patient treatment cards—
important records of patients’ treatment history—were not available at many of the health
facilities, it did not recommend fixing the problem. Not surprisingly, division officials
acknowledged that unavailability of treatment cards was still a problem at health facilities in
2013.

USAID/Kenya’s data verification was inadequate in two ways. First the mission did not address
delayed data sharing from TB/HIV partners. Although mission officials were aware that the initial
TB/HIV reporting was incomplete because district coordinators and TB/HIV partner officials did
not collaborate, they did not resolve these delays. Second USAID/Kenya did not review the
DQA prepared by the division. While USAID/Kenya officials had been involved in the design of
the division’s DQA, they did not review the final assessment report. Had USAID/Kenya officials
done so, they could have worked with the division to revise it.

As a result, data from fiscal year 2012 TB/HIV activities was incomplete, and it was unclear the
extent to which data from TB activities could be trusted. Because of the problems with data, the
mission lacked timely, reliable information about its TB activities in Kenya. Although
USAID/Kenya officials noted that partners would update their TB data before the mission
presented consolidated figures in annual reports, reliable information was not available during
the year to help monitor progress and make decisions. In addition, USAID’s fiscal year 2011
report to Congress listed treatment success rates from various countries, including Kenya,
although the mission had not verified this information. Moreover, in its fiscal year 2012 full
performance plan and report, which USAID uses to prepare its annual report to Congress,
USAID/Kenya included 12 figures compiled by the division. Therefore, we make the following
recommendations.

   Recommendation 2. We recommend that USAID/Kenya implement a plan to improve
   coordination between the Division of Leprosy, Tuberculosis, and Lung Disease and
   implementing partners reporting indicator results pertaining to patients infected with
   tuberculosis and HIV.

   Recommendation 3. We recommend that USAID/Kenya implement a plan to
   commission a new data quality assessment of tuberculosis performance indicators that
   complies with USAID’s requirements. The assessment should contain overall
   conclusions on the data management system, including systemic problems, if applicable,
   and mission officials should review the final assessment report to verify that it complies
   with USAID requirements.




                                                                                                 7
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report and subsequent communication, USAID/Kenya agreed with
and made management decisions on all three recommendations, taking final action on
Recommendation 1. Recommendations 2 and 3 remain open pending the completion of
monitoring reviews and the new DQA. Our detailed evaluation of management comments
follows.

Recommendation 1. USAID/Kenya agreed to direct the Center for Health Solutions, Kenya, to
include in its work plan technical assistance to the division to develop a financial sustainability
plan, which should include improved cost efficiency for tuberculosis programs. The mission
reviewed and approved a revised work plan meeting these requirements on October 8, 2013.
The mission’s actions constitute both a management decision and final action.

Recommendation 2. USAID/Kenya agreed to improve coordination between the division and
implementing partners reporting indicator results pertaining to patients infected with TB and HIV.
USAID/Kenya made a management decision, directing its implementing partners to hold
quarterly meetings with the division and promising to monitor meetings for three consecutive
quarters. The mission expects to complete this action by March 31, 2014.

Recommendation 3. USAID/Kenya agreed to conduct a new DQA for TB performance
indicators that complies with USAID’s requirements and review the final assessment report. The
mission’s management decision was to commission a new DQA in September 2013 and review
the ongoing assessment for compliance with USAID requirements. The mission expects the
final report around November 15, 2013, and anticipates completing action on this
recommendation by January 31, 2014.




                                                                                                 8
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/Pretoria conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe the evidence obtained provides
that reasonable basis.

The objectives of the audit were to determine whether USAID/Kenya’s TB program improved
laboratory capabilities and access to treatment, and whether USAID/Kenya TB/HIV activities
increased access to the service delivery system. We obtained documentation from
USAID/Kenya on all seven TB and TB/HIV projects active as of December 31, 2012. The
projects included in the scope of the audit were TB Care, implemented by KNCV; APHIA Plus
Nairobi Coast, implemented by Pathfinder; and AMPATH Plus, implemented by a consortium
led by Moi Teaching and Referral Hospital. We selected these three projects based on funding
amounts, reported results, and each project’s relevance to the audit objectives. Cost ceilings for
these projects totaled $141.8 million for activities in Kenya. As of March 31, 2013, obligations for
the three projects totaled $83.7 million and expenditures amounted to $47.6 million. Total
expenditures allocated to TB or TB/HIV activities and included in the audit scope totaled $6.6
million. This represents the amount tested as part of this performance audit.

We performed the audit in Kenya from April 29 through May 16, 2013. We began the audit by
reviewing key planning documents such as the Government of Kenya’s and USAID/Kenya’s TB
strategies, implementing partner agreements, modifications, quarterly reports, and work plans
for fiscal years 2012 and 2013. We conducted fieldwork at USAID/Kenya, at Pathfinder and
KNCV offices in Nairobi, Pathfinder’s office in Mombasa, and at Moi Teaching and Referral
Hospital offices in Eldoret. We then conducted site visits to selected health facilities and
interviewed beneficiaries in and around Mombasa and Eldoret.

In planning and performing the audit, we assessed the significant internal controls used by
USAID/Kenya to monitor program activities, including work plans and performance reports. We
reviewed the contracting procedures used to issue the agreements for the projects included in
the scope. We also reviewed the mission’s certification required under the Federal Managers’
Financial Integrity Act of 1982 (as codified in 31 U.S.C. 1105, 1113, and 3512) for fiscal year
2012 and a prior audit report related to USAID/Kenya’s HIV activities to identify internal control
and other issues that could be relevant to the current audit.

Methodology
To answer the audit objectives, we reviewed program documentation, including cooperative
agreements and progress reports, and corroborated information with interviews and site visits.
We interviewed USAID/Kenya, implementing partner, and Government of Kenya officials. Site
visits included seven health facilities ranging from provincial hospitals to community health
dispensaries. During site visits, we assessed compliance with branding and marking plans and
spoke with beneficiaries to ascertain their awareness of USAID and their views of program
effects. The key factors for selecting locations for site visits were their ability to enhance our


                                                                                                  9
                                                                                          Appendix I


understanding of the types of activities implemented, accessibility, and their contribution to
obtaining a mix of different types of health facilities, such as clinics or hospitals. .

We selected two performance indicators to track the success of TB activities associated with
Objective 1—to improve laboratory capability and access to treatment in Kenya as implemented
through TB Care. We selected two additional performance indicators relevant to Objective 2—
increased access to service delivery systems in Kenya—and reviewed the data prepared for the
APHIA Plus Nairobi Coast and AMPATH Plus projects that implemented TB/HIV activities.
During site visits to TB-funded activities, we verified the location and use of commodities
purchased, including GeneXpert machines, motor bikes, and tablet computers used by district
coordinators for supervisory visits to health facilities. Because implementing partners use data
collected by the division’s district coordinators, we examined district and health facility registers.
We recalculated the district’s totals for indicators such as the number of new patients started on
treatment and the number of retreatment cases from the district coordinator’s records and
compared them with the amounts shown in the division’s central records. We also compared
data from the district coordinator’s records with the registers maintained at each health facility.
We performed these procedures at seven judgmentally selected health facilities in four districts,
which were selected based on facility classification, accessibility, and types of activities
performed. Because we did not use a statistical sample, the results of our tests cannot be
projected to the population from which they were drawn. We established a materiality threshold
of 5 percent of the reported result.




                                                                                                   10
                                                                                                                   Appendix II



MANAGEMENT COMMENTS 


DATE:
                                               ~ C'' ' Y 2::J
                                                       :
FROM:                 Karen Freeman, Mission Director, USA ID/Kl:envA /s/

TO:                   Acting Regional Inspector Genera l/ Pretoria, Bradley Klingsporn

SU B.J ECT:           Audit of USAJD Kenya's Tuberculosis Acti vities (Report No. 4-6 15- 13-XXX-P)



This memorandum transm its USAlD/Kcnya's management comlnents on three recomm endations
contained in the subj ect aud it report in accordance with ADS 595 .3. 1.2. The objective cr the
audit was to "determine whether USA ID/Kenyu's TO activ iti es improved laboratory capabilities
and access to treatment and whether TBn nV activi ti es illcreased access to the service de livery
system"

RecommemJalioll i: "We rccommend Ihat USAIDI Kenya direct/he Center for l/ea/lh Solillions.
Kenya. to include in Us work plan technical aflsiSlance 10 the Division of Leprw.y. Tuberculosis.
and Lung Disease In develop ajinclllcial .wslainabilily plan thai inc:llldes improved co.fl/
efficiency ji)r fUberculm·j.:.· pfU1!.rOms. "

Mission Response: USA ID/Kcnya concu rs wi th thi s recommendation.

The Miss ion via an-ac hed email dated OClober 1, 2013, instructed Ce nter for lIealth Solutions
(CHS) to include in its first year work pion, tec hnical assistance to the Divis ion of Leprosy,
Tuberculosis and Lu ng Disease (DLTLD) to develop a financial sustuinability plan that includes
improved cost efficiency for the tuberculosis programs. C HS submitted the revi sed work plan on
October 4, 2013. Mi ssio n reviewed and approved the work plan on October 8, 20 ) 3 Hnd con ll rms
that it includes u fi millcia l sustainability plan that incl udes im proved eflicicncy for the
tuberculosis program. This action is comp lete.

Reco",,,,elltlilliotl 1: UWe recommend thaI USA IDIKenya implement a plan to improve
coordination between the Division of Lepro!,y. TlIberculo,\'is. and Lung lJisease Clnd
implementing partners reporting indicator result.t pertaining 10 ptlfients inftcled will?
ruberculosis and HIV. "

Mission Response: USA ID/ Kenya concurs wi th this recommendation.

The Mission has incorporated in the new TD project's program description a plan to improve co-
ordination between DLTLD and implemcntin g plirLllcrs repo rting indi cator results pertaining to


                                             Couner Address
us Agency for IrtematlOnal Oe.elopc'I!I,,1   USAlOIKenya
USAIOKenya                                   r:Jo American EmbaMY      U.S. Postsl Address
PO BoIC629                                   Unrtad Nabons AlI8nll8,   USAIOKenya             Tel. 254·20-862 2000
v;tag8 MaIMt 00621                           e.g • .                   Unk64102               Fax: 254·20-862 2680 12682
NaIf'Cbl. Ken)'II                            NaI'Obl. Kenya            APO /I.E. 09831-4102   nrtp"llI<enya u&ald.gov




                                                                                                                           11
                                                                                          Appendix II 





TB/HIV co-infected patients. Th is comprises quarterly review meetings between DLTLD and
USA ID/Kenya TBIl-lIV implementing partners reporting on TB/T-JJV indicators which is also
included in CHS' approved work plan. USAlD/Kenya will follow-up to ensure act ion points
identified in these joint meetings are implemented by the TB/ HI V partners as would be reported
by the implementing partners and CBS in their quarterly reports to USAID. Follow up meetings
are planned to occur on a quarterly basis with leadership from DLTLD. This action will be
completed after monitoring three quarterly meeti ngs. The target completion date is March 3 1,
2014


Recommelldation 3: "We recommend Ihat USAIDIKenya implement a plan (0 commission a new
dOlo qualilY (,,-sessmenr of,ubercuias is peljormance indicalors thai complies wilh USA /D 's
requirements. The assessmen{ should conlain overall conclusions on the dala management
syslem, including ~yslemic p roblems, if applicable, and mission officials should review the final
assessment report 10 ensure il complies with USA ID requirements . ..

Mission Response: US AlD/Kenya concurs with this rccorruncndation.

The Mission commissioned the data quali ty assessment (DQA) of tuberculosis indicators on
September 23,2013. This DQA is currently ongoing and mission is concurrentl y rev iewing it to
ensure it complies with USATD's requi rements. The final assessment report is expected on or
about November 15,2013. The target completion date is January 31, 20 14.




                                                                                                     12
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
